Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  NEW YORK CLAIMED SOME
  UNALLOWABLE COSTS FOR
   ASSISTIVE TECHNOLOGY
 SERVICES UNDER THE STATE’S
 DEVELOPMENTAL DISABILITIES
      WAIVER PROGRAM




                     Gloria L. Jarmon
                  Deputy Inspector General

                      November 2013
                      A-02-10-01039
                    Office of Inspector General
                                     https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

 New York State claimed at least $1.8 million in Federal Medicaid reimbursement for
 assistive technology services that were unallowable over a 3-year period.


WHY WE DID THIS REVIEW

New York State’s Office for People with Developmental Disabilities (OPWDD) waiver program
provides Medicaid assistive technology services (e.g., wheelchair ramp installations) through
contractors’ solicited bids. A previous Office of Inspector General review of other OPWDD
waiver program services identified unallowable Federal reimbursements. Thus, we audited
assistive technology services in this review.

The objective of this review was to determine whether the New York State Department of Health
(State agency) claimed Medicaid reimbursement for assistive technology services that complied
with certain Federal and State requirements.

BACKGROUND

Section 1915(c) of the Social Security Act (the Act) authorizes Medicaid home and community-
based services (HCBS) waiver programs. A State’s HCBS waiver program must be approved by
the Centers for Medicare & Medicaid Services (CMS) and allows a State to claim Federal
reimbursement for services not usually covered by Medicaid.

In New York State, the State agency administers the Medicaid program. Under a memorandum
of understanding with the State agency, OPWDD administers the State’s developmental
disabilities HCBS waiver program, which covers a variety of services, including assistive
technology services tailored to enable individuals to increase or maintain the ability to live
independently and safely at home or in the community.

Payments for assistive technology services are arranged through contracts between OPWDD and
a contractor, which may include a person enrolled in the waiver program, an advocate, a
nonprofit agency, or a family care provider. According to OPWDD waiver program guidance,
contractors obtain assistive technology services from vendors through solicited bids. OPWDD
pays the contractors directly with State funds before submitting claims for the services to the
State agency for Federal reimbursement.

HOW WE CONDUCTED THIS REVIEW

For the period 2006 through 2008, the State agency claimed approximately $15.5 million
(Federal share) for 5,236 payments for assistive technology services. We reviewed a stratified
random sample of 137 of these payments. A payment includes all claims paid for one
beneficiary on a given date of service or contract closeout date.




Assistive Technology Services Under New York’s Medicaid Waiver Program (A-02-10-01039)            i
WHAT WE FOUND

The State agency claimed Federal Medicaid reimbursement for some assistive technology
services that did not comply with certain Federal and State requirements. Of the 137 payments
in our random sample, the State agency properly claimed Medicaid reimbursement for 93
payments. However, for the remaining 44 payments, the State agency claimed Medicaid
reimbursement for services that were unallowable or potentially unallowable. Specifically, 39
payments were for services that did not comply with certain Federal and State requirements, and
for 5 payments, we could not determine whether the services complied with Federal and State
requirements.

Of the 39 payments for which the State agency improperly claimed Federal reimbursement, 2
payments contained more than 1 deficiency:

 •    For 31 payments, the State agency claimed reimbursement for services that were not
      provided pursuant to a written plan of care.

 •    For four payments, the State agency claimed reimbursement for services not covered under
      the waiver program.

 •    For three payments, the State agency claimed reimbursement for which the costs of
      services were improperly allocated to the waiver program.

 •    For two payments, the State agency claimed reimbursement for services that were not
      provided.

  •   For one payment, the State agency claimed reimbursement for services that were not
      supported by adequate documentation.

For the remaining five payments, the State agency issued a payment voucher to the contractor;
however, we could not verify the amount that the contractor paid to the vendor that performed
the services.

On the basis of our sample results, we estimated that the State agency improperly claimed at
least $1,807,255 in Federal Medicaid reimbursement for assistive technology services that were
unallowable. In addition, the State agency claimed $10,497 in Federal Medicaid reimbursement
for a portion of five payments for assistive technology services that may not have complied with
Federal and State requirements.

The claims for unallowable and potentially unallowable services were made because the State
agency’s and OPWDD’s policies and procedures for overseeing and administering payments for
assistive technology services did not adequately ensure that (1) services were provided only in
accordance with written plans of care and (2) contractors properly claimed reimbursement for
covered services and for services actually provided, maintained required documentation to
support services billed, and properly allocated costs to the waiver program.



Assistive Technology Services Under New York’s Medicaid Waiver Program (A-02-10-01039)            ii
WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund $1,807,255 to the Federal Government;

    •   work with CMS to resolve the portion of the five payments, totaling $10,497, for which
        the State agency may have claimed unallowable Federal Medicaid reimbursement and, if
        applicable, refund any unallowable amounts; and

    •   work with OPWDD to strengthen the agencies’ policies and procedures for ensuring that
        (1) assistive technology services are provided only in accordance with written plans of
        care and (2) contractors properly claim reimbursement for covered services and for
        services actually provided, maintain required documentation to support services billed,
        and properly allocate costs to the waiver program.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our findings and
recommendations and described the actions that it had taken or planned to take to address our
recommendations.




Assistive Technology Services Under New York’s Medicaid Waiver Program (A-02-10-01039)          iii
                                                    TABLE OF CONTENTS

INTRODUCTION .......................................................................................................................1

         Why We Did This Review ................................................................................................1

         Objective ...........................................................................................................................1

         Background .......................................................................................................................1
               The Medicaid Program ..........................................................................................1
               New York’s Office for People With Developmental Disabilities
                 Waiver Program .................................................................................................1
               Assistive Technology Services ..............................................................................2

         How We Conducted This Review .....................................................................................2

FINDINGS ...................................................................................................................................2

         Services Not Provided in Accordance With a Written Plan of Care .................................3

         Services Not Covered ........................................................................................................4

         Costs for Services Improperly Allocated to Waiver Program ...........................................4

         Services Not Provided .......................................................................................................5

         Services Not Documented .................................................................................................5

         Potentially Unallowable Claims Because Payment to the Vendor
          Was Not Documented ...................................................................................................5

         Conclusion .........................................................................................................................5

RECOMMENDATIONS .............................................................................................................6

STATE AGENCY COMMENTS ................................................................................................6




Assistive Technology Services Under New York’s Medicaid Waiver Program (A-02-10-01039)                                                            iv
APPENDIXES

        A: Audit Scope and Methodology ..................................................................................7

        B: Statistical Sampling Methodology .............................................................................9

        C: Sample Results and Estimates ....................................................................................11

        D: Summary of Deficiencies for Each Sampled Payment ..............................................12

        E: State Agency Comments ............................................................................................16




Assistive Technology Services Under New York’s Medicaid Waiver Program (A-02-10-01039)                                            v
                                           INTRODUCTION

WHY WE DID THIS REVIEW

New York State’s Office for People with Developmental Disabilities (OPWDD) waiver program
provides Medicaid assistive technology services (e.g., wheelchair ramp installations) through
contractors’ solicited bids. A previous Office of Inspector General review of other OPWDD
waiver program services identified unallowable Federal reimbursements. 1 For example, we
identified services that were not documented or provided pursuant to a written plan of care. Thus,
we audited assistive technology services in this review.

OBJECTIVE

Our objective was to determine whether the New York State Department of Health (State
agency) claimed Federal Medicaid reimbursement for assistive technology services that
complied with certain Federal and State requirements.

BACKGROUND

The Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although a
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with Federal requirements.

Section 1915(c) of the Act authorizes Medicaid home and community-based services (HCBS)
waiver programs. A State’s HCBS waiver program must be approved by CMS and allows a
State to claim Federal reimbursement for services not usually covered by Medicaid.

New York’s Office for People With Developmental Disabilities Waiver Program

In New York State, the State agency administers the Medicaid program. Under a memorandum
of understanding with the State agency, OPWDD administers the State’s developmental
disabilities HCBS waiver program (the waiver program). 2 The waiver program has been in
operation since State fiscal year 1992. On September 24, 2009, CMS approved the waiver
program for a 5-year renewal period, through September 30, 2014.

1
 New York Claimed Some Unallowable Costs for Services by New York City Providers Under the State’s
Developmental Disabilities Waiver Program (A-02-10-01027).
2
 The waiver program is formally known as the New York State Office of Mental Retardation and Developmental
Disabilities (OMRDD) waiver program. However, in July 2010, OMRDD was renamed the Office for People With
Developmental Disabilities.


Assistive Technology Services Under New York’s Medicaid Waiver Program (A-02-10-01039)                   1
Assistive Technology Services

The waiver program covers a variety of services, including assistive technology services tailored
to enable individuals to increase or maintain the ability to live independently and safely at home
or in the community. Assistive technology services are provided in both State- and privately
operated residences. Services are divided into two groups: environmental modifications and
adaptive devices. Environmental modifications are modifications or adaptations to the person’s
home (e.g., installations of ramps and lifts) that address needs related to physical, behavioral, or
sensory disabilities. Adaptive devices are aids, controls, appliances, or supplies of a
communication or adaptive type (e.g., motorized wheelchairs and electronic speech devices) that
assist the person in the performance of self-care, work, leisure activities, or physical exercise.

OPWDD pays contractors 3 to arrange for assistive technology services through individual
vendors (e.g., construction companies, architects, and retailers). According to OPWDD waiver
program guidance, contractors obtain assistive technology services from vendors through
solicited bids. OPWDD pays the contractors directly with State funds before submitting claims
for the services to the State agency for Federal reimbursement.

HOW WE CONDUCTED THIS REVIEW

For the period 2006 through 2008, the State agency claimed Federal reimbursement of
approximately $15.5 million for 5,236 payments that it made to contractors for assistive
technology services. We reviewed a stratified random sample of 137 of these payments. A
payment is defined as all claims paid for one beneficiary on a given date of service or contract
closeout date.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology, Appendix B contains our
statistical sampling methodology, and Appendix C contains our sample results and estimates.

                                                     FINDINGS

The State agency claimed Federal Medicaid reimbursement for some assistive technology
services that did not comply with certain Federal and State requirements. Of the 137 payments
in our random sample, the State agency properly claimed Medicaid reimbursement for 93
payments. However, for the remaining 44 payments, the State agency claimed Medicaid
reimbursement for services that were unallowable or potentially unallowable. Specifically, 39
payments were for services that did not comply with certain Federal and State requirements, and
for 5 payments, we could not determine whether the services complied with Federal and State
requirements.
3
    A contractor may be a beneficiary, an advocate, a nonprofit agency, or a family care provider.


Assistive Technology Services Under New York’s Medicaid Waiver Program (A-02-10-01039)               2
Of the 39 payments for which the State agency improperly claimed Federal reimbursement, 2
payments contained more than 1 deficiency:

 •    For 31 payments, the State agency claimed reimbursement for services that were not
      provided pursuant to a written plan of care.

 •    For four payments, the State agency claimed reimbursement for services not covered under
      the waiver program.

 •    For three payments, the State agency claimed reimbursement for which the costs of
      services were improperly allocated to the waiver program.

 •    For two payments, the State agency claimed reimbursement for services that were not
      provided.

  •   For one payment, the State agency claimed reimbursement for services that were not
      supported by adequate documentation.

For the remaining five payments, the State agency issued a payment voucher to the contractor;
however, we could not verify the amount that the contractor paid to the vendor that performed
the services.

On the basis of our sample results, we estimated that the State agency improperly claimed at
least $1,807,255 in Federal Medicaid reimbursement for assistive technology services that were
unallowable. In addition, the State agency claimed $10,497 in Federal Medicaid reimbursement
for a portion of five payments for assistive technology services that may not have complied with
Federal and State requirements.

The claims for unallowable and potentially unallowable services were made because the State
agency’s and OPWDD’s policies and procedures for overseeing and administering payments for
assistive technology services did not adequately ensure that (1) services were provided only in
accordance with written plans of care and (2) contractors properly claimed reimbursement for
covered services and for services actually provided, maintained required documentation to
support services billed, and properly allocated costs to the waiver program.

Appendix D contains a summary of deficiencies, if any, identified for each sampled payment.

SERVICES NOT PROVIDED IN ACCORDANCE WITH A WRITTEN PLAN OF CARE

Waiver program services must be provided only under a written plan of care subject to approval
by the State Medicaid agency (section 1915(c)(1) of the Act and the State’s waiver agreement
with CMS). The plan of care must specify the services to be provided, their frequency, and the
type of provider (section 4442.6 of the CMS State Medicaid Manual). No Federal Medicaid
reimbursement is available for waiver program services furnished without a written plan of care.




Assistive Technology Services Under New York’s Medicaid Waiver Program (A-02-10-01039)             3
For 31 of the 137 sampled payments, the State agency claimed reimbursement for assistive
technology services (including vehicle, kitchen, and bathroom modifications and fire alarm and
sprinkler system installations) that were not provided pursuant to a written plan of care.
Specifically, for 30 payments, the State agency claimed reimbursement for services that were not
listed on the beneficiary’s plan of care prior to being furnished. For the remaining payment,
OPWDD could not provide the plan of care that covered the sampled service period.

SERVICES NOT COVERED

Federal Medicaid reimbursement is available only for allowable expenditures made on behalf of
eligible recipients for covered services (section 2497.1 of the CMS State Medicaid Manual).
Within Federal requirements, waiver services include services as defined by the State agency and
approved by CMS (42 CFR § 440.180(a)(1)). In defining environmental modifications as a
waiver service, OPWDD guidance to its regional offices states that payments for additions to
residential homes are prohibited. 4 The guidance also states that items required by local building
codes are not eligible for reimbursement.

For 4 of the 137 sampled payments, the State agency claimed reimbursement for assistive
technology services that were not covered under the waiver program. Specifically, for two
payments, the State agency claimed reimbursement for architect fees for creating plans for the
conversion of a garage into a bedroom, and for one payment, the State agency claimed
reimbursement for the conversion of a garage into a bedroom. For the remaining payment, the
State agency claimed reimbursement for the installation of a porch railing required by local
building code. 5

COSTS FOR SERVICES IMPROPERLY ALLOCATED TO WAIVER PROGRAM

In order to be allowable, a cost incurred under a Federal award must be reasonable, adequately
supported, and allocable (2 CFR § 225, Appendix A, § C.1). A cost is allocable to a particular
cost objective if the goods or services involved are chargeable or assignable to such cost
objective in accordance with relative benefits received (2 CFR § 225, Appendix A, § C.3.a).

For 3 of the 137 sampled payments, the State agency claimed reimbursement for assistive
technology services for which the cost of services was improperly allocated to the waiver
program. Specifically, for two payments, the State agency claimed reimbursement under the
waiver program for the entire cost of renovations to a residence that benefited both waiver- and
non-waiver-enrolled beneficiaries. For the remaining payment, the claim amount exceeded the
contractor’s actual cost for the item purchased.

4
  NYS OMRDD Advisory Memorandum - Assistive Technology (Environmental Modifications and Adaptive
Devices), dated May 20, 2005. According to the memorandum, a home addition is defined as any increase in the
square footage of a home, any expansion beyond the existing footprint of the home, and construction of living space
in a garage.
5
  Section R312.1 of the Residential Code of New York State (2006 edition) states that guards are required for open
sides of stairways, porches, balconies, or raised floor surfaces more than 30 inches in height, except for open sides
of a flight of stairs with a total rise of 30 inches or less, although handrails are still required when there are two or
more risers.


Assistive Technology Services Under New York’s Medicaid Waiver Program (A-02-10-01039)                                      4
SERVICES NOT PROVIDED

Federal Medicaid reimbursement is available only for allowable actual expenditures made on
behalf of eligible recipients for covered services rendered by certified providers (section 2497.1
of the CMS State Medicaid Manual).

For 2 of the 137 sampled payments, the State agency claimed reimbursement for assistive
technology services that were not provided to the beneficiary. Specifically, for one payment, the
State agency claimed reimbursement for the installation of an automatic door opener that was not
installed, and for the remaining payment, the State agency claimed reimbursement for
modifications to a residence that the beneficiary did not move into.

SERVICES NOT DOCUMENTED

Medicaid providers must keep such records as are necessary to fully disclose the extent of the
services provided to individuals receiving assistance (section 1902(a)(27) of the Act). Further,
costs must be adequately documented to be allowable under Federal awards (2 CFR § 225,
Appendix A, § C.1.j). Medicaid covers expenditures for which all supporting documentation, in
readily reviewable form, has been compiled and which is immediately available when the claim
is filed (section 2500.2 of the CMS State Medicaid Manual). 6

For 1 of the 137 sampled payments, the State agency claimed reimbursement for assistive
technology services for which the contractor or OPWDD could not provide documentation for
payment to the vendor that provided the services.

POTENTIALLY UNALLOWABLE CLAIMS BECAUSE PAYMENT TO THE VENDOR
WAS NOT DOCUMENTED

For 5 of the 137 sampled payments, the State agency issued a payment voucher to the contractor;
however, we could not verify the amount paid by the contractor to the vendor that performed the
services. We are setting aside a portion of these payments for resolution by CMS and the State
agency to determine compliance with Federal and State reimbursement requirements. 7

CONCLUSION

On the basis of our sample results, we estimated that the State agency improperly claimed at
least $1,807,255 in Federal Medicaid reimbursement for assistive technology services that were
unallowable. In addition, the State agency claimed $10,497 in Federal Medicaid reimbursement
for assistive technology services that may not have complied with Federal and State
requirements.

6
  Supporting documentation includes as a minimum the following: date of service; name of recipient; Medicaid
identification number; name of provider agency and person providing the service; nature, extent, or units of service;
and place of service.
7
 The five payments totaled $64,860. Of this amount, we determined that $54,363 was allowable. We are setting
aside the remaining portion of payments, totaling $10,497.


Assistive Technology Services Under New York’s Medicaid Waiver Program (A-02-10-01039)                              5
The claims for unallowable and potentially unallowable services were made because the State
agency’s and OPWDD’s policies and procedures for overseeing and administering payments for
assistive technology services did not adequately ensure that (1) services were provided only in
accordance with written plans of care and (2) contractors properly claimed reimbursement for
covered services and for services actually provided, maintained required documentation to
support services billed, and properly allocated costs to the waiver program.

                                      RECOMMENDATIONS

We recommend that the State agency:

    •   refund $1,807,255 to the Federal Government;

    •   work with CMS to resolve the portion of the five payments, totaling $10,497, for which
        the State agency may have claimed unallowable Federal Medicaid reimbursement and, if
        applicable, refund any unallowable amounts; and

    •   work with OPWDD to strengthen the agencies’ policies and procedures for ensuring that
        (1) assistive technology services are provided only in accordance with written plans of
        care and (2) contractors properly claim reimbursement for covered services and for
        services actually provided, maintain required documentation to support services billed,
        and properly allocate costs to the waiver program.

                                  STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our findings and
recommendations and described the actions that it had taken or planned to take to address our
recommendations.

The State agency’s comments are included in their entirety as Appendix E.




Assistive Technology Services Under New York’s Medicaid Waiver Program (A-02-10-01039)            6
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed Medicaid payments to the State agency for assistive technology services during
calendar years 2006 through 2008. For this period, the State agency claimed reimbursement of
$15,517,290 (Federal share) for 5,236 payments for assistive technology services. We reviewed
a stratified random sample of 137 of these payments totaling $1,191,602 (Federal share). A
payment includes all claims paid for one beneficiary on a given date of service or contract
closeout date.

We did not review the overall internal control structure of the State agency or OPWDD. Rather,
we limited our review of internal controls to those applicable to our objective. We reviewed the
State agency’s and OPWDD’s internal controls for documenting assistive technology services
billed and claimed for reimbursement. We did not assess the appropriateness of assistive
technology services contract amounts or terms.

We performed fieldwork at the State agency’s offices in Albany, New York, and at beneficiaries’
private residences, State- and nonprofit-operated group homes, and OPWDD’s offices located
throughout the State.

METHODOLOGY

To accomplish our objective, we:

     • reviewed applicable Federal and State laws, regulations, and guidance;

     • held discussions with CMS officials to gain an understanding of CMS’s waiver approval,
       administration, and assessment processes;

     • held discussions with State agency and OPWDD officials to gain an understanding of
       how assistive technology services are provided under the OPWDD waiver program and
       to discuss the State’s policies and procedures related to the administration of these
       services under the OPWDD waiver program;

     • reconciled the OPWDD waiver program services that the State agency claimed for
       Federal reimbursement on the Form CMS-64, Quarterly Medicaid Statement of
       Expenditures for the Medical Assistance Program, to the payments for OPWDD waiver
       program services in the State’s Medicaid Management Information System (MMIS) for
       the quarter January 1, 2008, through March 31, 2008;

     • obtained from the State’s MMIS a sampling frame of 5,236 payments totaling
       $30,346,023 ($15,517,290 Federal share) for which the State agency claimed
       reimbursement for assistive technology services provided during calendar years 2006
       through 2008;



Assistive Technology Services Under New York’s Medicaid Waiver Program (A-02-10-01039)          7
     • selected from the sampling frame a stratified random sample of 137 payments and, for
       each payment, determined whether:

        o the beneficiary was diagnosed with a developmental disability and was assessed to
          need Intermediate Care Facilities for Individuals With Intellectual Disabilities level-
          of-care,

        o assistive technology services were provided pursuant to a written plan of care,

        o the services were covered under the waiver program,

        o the services were documented in accordance with Federal and State requirements, and

        o the costs were properly allocated to the waiver program; and

     • estimated the unallowable Federal Medicaid reimbursement.

Appendix B contains the details of our statistical sampling methodology. Appendix C contains
our sample results and estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Assistive Technology Services Under New York’s Medicaid Waiver Program (A-02-10-01039)              8
               APPENDIX B: STATISTICAL SAMPLING METHODOLOGY

POPULATION

The population consisted of all payments for assistive technology services during calendar years
2006 through 2008 for which the State agency claimed Medicaid reimbursement. A payment is
defined as all claims paid for one beneficiary on a given date of service or contract closeout date.

SAMPLING FRAME

The sampling frame was an Access file containing 5,236 payments for assistive technology
services during calendar years 2006 through 2008 totaling $30,346,023 ($15,517,290 Federal
share). The data for these payments were extracted from the State’s MMIS.

SAMPLE UNIT

The sample unit was a payment for assistive technology services.

SAMPLE DESIGN

We used a stratified random sample. We separated the sampling frame into two strata as
follows:

        •   stratum 1: payments with Federal share less than or equal to $20,000 = 5,199
            payments totaling $28,472,170 ($14,563,426 Federal share).

        •   stratum 2: payments with Federal share greater than $20,000 = 37 payments totaling
            $1,873,853 ($953,864 Federal share).

SAMPLE SIZE

We selected a sample of 137 payments as follows:

    •   100 payments from stratum 1 and

    •   37 payments from stratum 2.

SOURCE OF THE RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit
Services (OAS), statistical software.




Assistive Technology Services Under New York’s Medicaid Waiver Program (A-02-10-01039)             9
METHOD FOR SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in each of the two strata. After generating 100
random numbers for stratum 1, we selected the corresponding frame items. We selected for
review all 37 payments in stratum 2.

ESTIMATION METHODOLOGY

We used the OAS statistical software to calculate our estimates. We used the lower limit of the
90-percent confidence interval to estimate the overpayment associated with the claims for
unallowable assistive technology services.




Assistive Technology Services Under New York’s Medicaid Waiver Program (A-02-10-01039)        10
                   APPENDIX C: SAMPLE RESULTS AND ESTIMATES

                                     Sample Details and Results

                                                                              No. of      Value of
                              Value of                       Value of       Payments     Unallowable
                               Frame                          Sample           with       Services
             Payments         (Federal           Sample      (Federal      Unallowable    (Federal
Stratum      in Frame          Share)             Size        Share)         Services      Share)
   1           5,199         $14,563,426           100        $237,738          23         $53,766
    2              37             953,864          37          953,864           16        293,662
 Total         5,236         $15,517,290          137      $1,191,602            39       $347,428


                   Estimated Value of Unallowable Services (Federal Share)
                    (Limits Calculated for a 90-Percent Confidence Interval)

                                Point estimate             $3,088,942
                                 Lower limit                1,807,255
                                 Upper limit                4,370,628




Assistive Technology Services Under New York’s Medicaid Waiver Program (A-02-10-01039)           11
  APPENDIX D: SUMMARY OF DEFICIENCIES FOR EACH SAMPLED PAYMENT

                                              Legend
         1   Services not provided pursuant to a written plan of care
         2   Services not covered
         3   Costs for services improperly allocated to waiver program
         4   Services not provided
         5   Services not documented

      Office of Inspector General Review Determinations for the 137 Sampled Payments

  Sample        Deficiency      Deficiency      Deficiency      Deficiency      Deficiency     No. of
 Payment            1               2               3               4               5        Deficiencies
     1
     2
     3               X                                                                            1
     4
     5
     6
     7
     8               X                                                                            1
     9
    10                               X                                                            1
    11                                                               X                            1
    12
    13
    14
    15               X                                               X                            2
    16
    17               X                                                                            1
    18
    19
    20
    21
    22
    23
    24               X                                                                            1
    25
    26               X                                                                            1
    27               X                                                                            1
    28               X                                                                            1
    29
    30               X                                                                            1
    31



Assistive Technology Services Under New York’s Medicaid Waiver Program (A-02-10-01039)            12
  Sample        Deficiency      Deficiency      Deficiency      Deficiency      Deficiency     No. of
 Payment            1               2               3               4               5        Deficiencies
    32              X                                                                             1
    33              X                                                                             1
    34
    35               X                                                                            1
    36
    37                                               X                                            1
    38
    39               X                                                                            1
    40
    41               X                                                                            1
    42
    43
    44
    45
    46
    47
    48               X                                                                            1
    49
    50
    51
    22
    53
    54
    55
    56
    57
    58               X                                                                            1
    59
    60
    61
    62
    63
    64
    65
    66                               X                                                            1
    67                               X                                                            1
    68
    69
    70
    71
    72               X                                                                            1
    73
    74


Assistive Technology Services Under New York’s Medicaid Waiver Program (A-02-10-01039)            13
  Sample        Deficiency      Deficiency      Deficiency      Deficiency      Deficiency     No. of
 Payment            1               2               3               4               5        Deficiencies
     75
     76              X                                                                            1
     77              X                                                                            1
     78
     79
     80
     81
     82
     83
     84
     85              X                                                                            1
     86
     87
     88
     89
     90
     91
     92
     93
     94
     95                                                                              X            1
     96
     97
     98
     99
    100                              X                                                            1
    101
    102
    103
    104
    105
    106              X                                                                            1
    107
    108
    109
    110
    111              X                                                                            1
    112
    113
    114
    115
    116
    117


Assistive Technology Services Under New York’s Medicaid Waiver Program (A-02-10-01039)            14
  Sample        Deficiency      Deficiency      Deficiency      Deficiency      Deficiency     No. of
 Payment            1               2               3               4               5        Deficiencies
    118
    119
    120
    121
    122              X                                                                            1
    123              X                                                                            1
    124
    125
    126
    127
    128              X                                                                            1
    129              X                                                                            1
    130
    131              X                                                                            1
    132                                              X                                            1
    133
    134              X                                                                            1
    135              X                                                                            1
    136              X                               X                                            2
    137              X                                                                            1
 Category
                     31               4               3              2               1           41*
  Totals
39 Payments With Deficiencies

*Two claims contained more than one deficiency.




Assistive Technology Services Under New York’s Medicaid Waiver Program (A-02-10-01039)            15
                               APPENDIX E: STATE AGENCY COMMENTS 





              Nirav R. Shah. M.D.. M.P.H. 	                                                              Su e Ke lly
              Commissioner 	                                                          Executive Depuly Commissioner




                                                                  October 25 , 2013




            Mr. James P. Edert
            Regional Inspector General for Audit Services
            Department of Health and Human Services
            Office of the Inspector General
            Jacob Javits Federal Bui lding
            26 Federal Plaza, Room 3900
            New York, NY 10278
                                                                  Ref No. A-02-10-0 139
            Dear Mr. Edert:

            Enclosed are the Department of Health' s comments on the U.S. Department of Health and
            Human Services, Office oflnspector General Draft Audit Report #A-02-10-0139 entitled, "New
            York Claimed Some Unallowable Costs fo r Assistive T echno logy Services Under the State' s
            D evelopmental Disabilit ies Waiver Program."

            Thank you for the opportunity to comment.

                                                                  Sincerely,

                                                               :Micliae/J. .Nazar£o

                                                                  M ichael J. Nazarko
                                                                  Deputy Commissioner
                                                                   for Administration

            E nclosure

             cc: 	   Jason A. Helgerson
                     James C. Cox
                     Diane Christensen
                     Lori Conway
                     Robert Loftus
                     Joan Kewley
                     Rona ld Farrell
                     Brian Kiernan
                     Elizabeth Misa
                     OHIP Audit BML
                                                   HEA LTH .NY.GO V
                                                   facebook.com/NYSDOH
                                                   twittPrrnmiHe"lthNYGo"




Assistive Technology Services Under New York's M edicaid Waiver Program (A-02-10-01 039)                               16
                               New York State Department of Health 

                                           Comments on the 

                           US Department of Health and Human Services 

                                      Office of Inspector General 

                             Draft Audit Report A-02-10-01039 Entitled 

                           New York Claimed Some Unallowable Costs for 

                           Assistive Technology Services Under the State's 

                            Developmental Disabilities Waiver Program 


            The following are the N ew York State Department of Health's (Department) comments in
            response to the US D epartment of Health and Huma n Services, Office of Inspector General' s
            (OIG) draft audit report A-02-10-01039 entitled, "New York Claimed Some U nallowable Costs
            for Assisti ve Technology Services Under the State's Developmental Disabilities Waiver
            P rogram."

            Recommendation #1:

            We recommend that the State agency refund $ 1,807,255 to the Federal Government.

            Response #1:

            We agree with the finding and recommendation to refund the federal share of$1 , 807,255 to the
            Federal Government.

            Recommendation #2:

            We recommend that the State agency work with Centers for Medicare and Medicaid Services
            (CMS) to resolve the portion of the five pay ments, totaling $ 10,497, for which the State agency
            may have c laimed unallowable Federal Medicaid reimbursement and if applicable, refund any
            unallowable amounts.

            Response #2:

            We agree with the findi ng and recommendation fo r the State agency to work wit h CMS to resolve
            the portion ofthe fi ve payments, totaling $ 10,497, for which the State agency may have claimed
            unallowable Federal Medicaid reimbursement and if applicable, refund a ny unallowable amounts.

            Recommendation #3 :

            We recomme nd that the State agency work wit h the Office for People wi th D evelopmental
            Disabilities (OPWDD) to strengthen the agencies' policies and procedures for ensuring that ( 1)
            assistive technology services are provided only in accordance with written plans of care and (2)
            contractors properly claim reimbursement for covered services and for services actuall y provided,
            maintain required documentation to support services billed, and properly allocate costs to the
            waiver program.




Assistive Technology Services Under New York's M edicaid Waiver Program (A-02-10-01 039)                         17
            Response #3:

           We agree wit h the finding and recommendation that DOH work with OPWDD to strengthen
           policies a nd procedures in all these areas, and will take appropriate actions. Regarding w ritt en
           plans of care, the vast majority of the audit findings pertained to issues wit h them. Please note that
           effective October 19, 2011 OPWDD no longer funded assistive techn ology services under the
           home and community-based services (HCB S) waiver for certified individualized residential
           altern ative (IRA) reside nces. As a result, this wi ll sig nificantly reduce the amount of se rvices
           provided as well as the likeliness of a problem with plans ofcare recurring, as the problems found
           were mostly with indi vidual s in an IRA residence. Even so, OPWDD has taken action a nd wi ll
           continue to take corr ective action. Guidance was issued related to procedures for review,
           approva l, develop ment and pay me nt for an HCBS Assistive Technology Co ntract in August 2008
           and they were updated in January 2009. In September 2013, OPWDD ' s wa iver unit implemented
           a statewide workgroup to review and update policies and procedures related to assistive
           technology services (this workgroup includes staff from various OPWDD offices) and guidance is
           also being deve loped for service coordin ators related to assistive technology services and the
           justification that is necessary w ithin each person ' s plan ofcare.




                                                             2




Assistive Technology Services Under New York's Medicaid Waiver Program (A-02-10-01 039)                              18
